DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
--------------------------------ANTHONY JOHN PONTICELLI,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
----------------------------------------------------------------------PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
---------------------------

MARTIN J. McCLAIN
Florida Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
FAX: (954) 564-5412
martymcclain@comcast.net
COUNSEL FOR PETITIONER

QUESTIONS PRESENTED--CAPITAL CASE
1.

Whether the Florida Supreme Court’s statutory

construction in Hurst v. State constitutes substantive law, and
if so, whether the Due Process Clause of the Fourteenth Amendment
requires that this substantive law govern the law in existence at
the time of Mr. Ponticelli’s alleged offense?
2.

Whether the Due Process Clause of the Fourteenth

Amendment permits State v. Poole to retroactively change
Florida’s substantive law to Mr. Ponticelli’s detriment?
3.

Whether McKinney v. Arizona governs the retroactivity

of Hurst v. Florida and Hurst v. State as to Florida’s capital
sentencing statute which is markedly different than Arizona’s
statute?
4.

Whether the Eighth Amendment requires a unanimous jury

verdict on the elements required for a capital defendant to be
sentenced to death?

i

NOTICE OF RELATED CASES
Per Supreme Court Rule 14.1(b)(iii), the following cases
relate to this petition:
Underlying Trial:
Circuit Court of Marion County, Florida
State of Florida v. Anthony Ponticelli, Case No. 87-2719 CF
Judgement Entered August 12, 1988
Appellate Proceedings:
Florida Supreme Court (Case No. 60-73,064)
Ponticelli v. State, 593 So. 2d 483 (Fla. 1991)
Conviction and Sentence Affirmed: October 10, 1991
Petition for Writ of Certiorari:
United States Supreme Court
Ponticelli v. Florida, 506 U.S. 802 (1992)
Vacated Judgement and Remanded: October 5, 1992
Proceedings on Remand to the Florida Supreme Court:
Florida Supreme Court (Case No. 60-73,064)
Ponticelli v. State, 618 So. 2d 154 (Fla. 1993)
Death Sentence Affirmed: March 4, 1993
Initial Postconviction Proceedings:
Circuit Court of Marion County, Florida
State of Florida v. Anthony Ponticelli, Case No. 87-2719 CF
Judgement Entered November 1, 2002 (denying motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC03-17)
Ponticelli v. State, 941 So. 2d 1073 (Fla. 2006)
Affirmed: August 31, 2006
Successive Postconviction Proceedings:
Circuit Court of Marion County, Florida
State of Florida v. Anthony Ponticelli, Case No. 87-2719 CF
Judgement Entered November 1, 2003 (denying motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC03-1655)
Ponticelli v. State, 879 So. 2d 623 (Fla. 2004)
Affirmed: June 9, 2004
Second Successive Postconviction Proceedings:
Circuit Court of Marion County, Florida
State of Florida v. Anthony Ponticelli, Case No. 87-2719 CF
Judgement Entered March 16, 2009 (denying motion)
Appellate Proceedings:
ii

Florida Supreme Court (Case No. SC09-992)
Ponticelli v. State, 49 So. 3d 236 (Fla. 2010)
Affirmed: November 10, 2010
Third Successive Postconviction Proceedings:
Circuit Court of Marion County, Florida
State of Florida v. Anthony Ponticelli, Case No. 87-2719 CF
Judgement Entered April 1, 2011 (denying motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC11-877)
Ponticelli v. State, 90 So. 3d 823 (Fla. 2012)
Affirmed: April 26, 2012
Appellate Proceedings:
Eleventh Circuit Court of Appeals (Case No. 11-11966)
Ponticelli v. Sec’y, Dept. of Corrs., 690 F.3d 1271 (11th
Cir. 2012)
Affirmed: August 16, 2012
Fourth Successive Postconviction Proceedings:
Circuit Court of Marion County, Florida
State of Florida v. Anthony Ponticelli, Case No. 87-2719 CF
Judgement Entered May 9, 2017 (denying motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC19-607)
Ponticelli v. State, 297 So. 3d 1292 (Fla. 2020)
Affirmed: April 16, 2020

iii

TABLE OF CONTENTS
PAGE
QUESTION PRESENTED--CAPITAL CASE. . . . . . . . . . . . . . . . i
NOTICE OF RELATED CASES . . . . . . . . . . . . . . . . . . .

ii

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . .

iv

TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . . . v
CITATION TO OPINION BELOW . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . . . . . 2
PROCEDURAL HISTORY. . . . . . . . . . . . . . . . . . . . . . . 2
FACTS RELEVANT TO QUESTIONS PRESENTED . . . . . . . . . . . . . 5
THE STATE COURT’S RULING. . . . . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . 7
I.

THE FLORIDA SUPREME COURT ERRONEOUSLY APPLIED POOLE v.
STATE AND McKINNEY v. ARIZONA, TO MR. PONTICELLI’S
CLAIM THAT THE STATUTORY CONSTRUCTION IN HURST v.
STATE, IDENTIFIED THE ELEMENTS OF CAPITAL MURDER AT THE
TIME OF HIS SENTENCING IN 1988. . . . . . . . . . . . 7

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . .

20

CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . . .

20

iv

TABLE OF AUTHORITIES
PAGE
Apprendi v. New Jersey,
530 U.S. 466 (2000). . . . . . . . . . . . . . . . . . .

20

Bouie v. City of Columbia,
378 U.S. 347 (1964). . . . . . . . . . . . . . . . . . .

14

Brinkerhoff-Faris Trust & Sav. Co. v. Hill,
281 U.S. 673 (1930). . . . . . . . . . . . . . . . . . .

14

Dixon v. State.,
283 So. 2d 1 (Fla. 1973) . . . . . . . . . . . . . . . .

12

Espinosa v. Florida,
505 U.S. 1079 (Fla. 1992). . . . . . . . . . . . . . . . . 3
Hurst v. Florida,
136 S.Ct. 616 (2016) . . . . . . . . . . . . . . . . . . . 5
Hurst v. State,
202 So. 3d 40 (Fla. 2016). . . . . . . . . . . 5, 7-8, 11-12
Lowenfield v. Phelps,
484 U.S. 231 (1988). . . . . . . . . . . . . . . . . . 10-11
McKinney v. Arizona,
140 S.Ct. 702 (2020) . . . . . . . . . . . . . . . . . .

16

Parker v. Dugger,
498 U.S. 308 (1991). . . . . . . . . . . . . . . . . . .

15

Ponticelli v. Florida,
506 So. 2d 802 (1992) . . . . . . . . . . . . . . . . 3, 19
Ponticelli v. Sec’y Dept. Of Corrs.,
690 F.3d 1272 (11th Cir. 2012) . . . . . . . . . . . . . . 5
Ponticelli v. State,
593 So. 2d 483 (Fla. 1991). . . . . . . . . . . . . 3, 5, 6
Ponticelli v. State,
618 So. 2d 154 (Fla. 1993). . . . . . . . . . . . . . . . 3
Ponticelli v. State,
879 So. 2d 623 (Fla. 2004) . . . . . . . . . . . . . . . . 4
Ponticelli v. State,
941 So. 2d 1073 (Fla. 2006) . . . . . . . . . . . . . . . 3

v

Ponticelli v. State,
49 So. 3d 236 (Fla. 2010). . . . . . . . . . . . . . . . . 4
Ponticelli v. State,
90 So. 3d 823 (Fla. 2012). . . . . . . . . . . . . . . . . 5
Ponticelli v. State,
297 So. 3d 1292 (Fla. 2020). . . . . . . . . . . . . 1, 5, 7
Porter v. McCollum,
558 U.S. 30 (2009) . . . . . . . . . . . . . . . . . . . . 4
Porter v. State,
564 So. 2d 1060 (Fla. 1990). . . . . . . . . . . . . . .

11

Ramos v. Louisiana,
140 S.Ct. 1390 (2020). . . . . . . . . . . . . . . . . .

18

Ring v. Arizona,
536 U.S. 584 (2002). . . . . . . . . . . . . . . . . . .

20

Rogers v. Tennessee,
532 U.S. 451 (2001). . . . . . . . . . . . . . . . . . .

15

Schiro v. Summerlin,
542 U.S. 348 (2004). . . . . . . . . . . . . . . . . . .

18

State v. Poole,
297 So. 3d 487 (Fla. 2020) . . . . . . . . . . . . . . .

13

Stringer v. Black,
503 U.S. 222 (1992). . . . . . . . . . . . . . . . . .

9-10

White v. State,
415 So. 2d 719 (Fla. 1982) . . . . . . . . . . . . . . .

15

White v. State,
729 So. 2d 909 (Fla. 1999) . . . . . . . . . . . . . . .

15

White v. State,
817 So. 2d 799 (Fla. 2002) . . . . . . . . . . . . . . .

15

vi

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
--------------------------------ANTHONY JOHN PONTICELLI,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.
--------------------------------Anthony John Ponticelli respectfully petitions this Court
for a writ of certiorari to review the decision of the Florida
Supreme Court.
CITATION TO OPINION BELOW
The Florida Supreme Court’s decision appears as Ponticelli
v. State, 297 So. 3d 1292 (Fla. 2020), and is Attachment A to
this petition. The order denying rehearing is Attachment B to
this petition.
STATEMENT OF JURISDICTION
Petitioner invokes this Court's jurisdiction to grant the
Petition for a Writ of Certiorari to the Florida Supreme Court on
the basis of 28 U.S.C. Section 1257. The Florida Supreme Court
entered its opinion on April 16, 2020. Rehearing was denied on
July 2, 2020.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Sixth Amendment to the Constitution of the United States
provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the state and district wherein the crime shall
have been committed ....
The Eighth Amendment to the Constitution of the United
States provides in relevant part:
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel or unusual punishments
inflicted.
The Fourteenth Amendment to the Constitution of the United
States provides, in relevant part:
No State shall . . . deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the
equal protection of the laws
PROCEDURAL HISTORY
Mr. Ponticelli was indicted on January 4, 1988, with two
counts of first-degree murder and one count of armed robbery (R.
1375-6). Mr. Ponticelli pled not guilty (R. 1385).
Mr. Ponticelli’s capital jury trial commenced on August 9,
1988. After the State rested, the trial court granted the
defense’s motion for judgment of acquittal as to the armed
robbery count (R. 941). Guilty verdicts were returned on both
counts of first degree murder on August 12, 1988.
The penalty phase began on August 18, 1988. That same day,
the jury recommended a death sentence by a vote of nine to three
for each of the murders (R. 1371-2). A sentencing hearing was
2

held on September 6, 1988, at which time Mr. Ponticelli was
sentenced to death for the two counts of first degree murder (R.
1849-51).
On direct appeal, the Florida Supreme Court affirmed Mr.
Ponticelli’s convictions and sentences. Ponticelli v. State, 593
So. 2d 483 (Fla. 1991).
After filing a writ of certiorari, this Court vacated the
judgment and remanded for further consideration in light of
Espinosa v. Florida, 505 U.S. 1079 (1992). Ponticelli v. Florida,
506 U.S. 802 (1992).
The Florida Supreme Court found Mr. Ponticelli’s challenge
to his jury instructions procedurally barred. Ponticelli v.
State, 618 So. 2d 154 (Fla. 1993).
A motion to vacate sentence pursuant to Rule 3.850 was filed
on April 11, 1995 (Supp. PC-R. 1-60). On July 10, 2000, an
evidentiary hearing commenced. Following the hearing, the lower
court entered an order denying all relief on November 1, 2002
(Supp. PC-R. 1736-60).
Mr. Ponticelli appealed to the Florida Supreme Court.
Simultaneously, with his appeal, Mr. Ponticelli filed a petition
for writ of habeas corpus. The Florida Supreme Court denied all
relief on August 31, 2006. Ponticelli v. State, 941 So. 2d 1073
(Fla. 2006).
While Mr. Ponticelli’s case was on appeal before the Florida
Supreme Court, Mr. Ponticelli filed a successive Rule 3.851
motion, based on this Court’s ruling in Ring v. Arizona. The
3

circuit court denied relief, as did the Florida Supreme Court.
Ponticelli v. State, 879 So. 2d 623 (Fla. 2004).
In May, 2007, Mr. Ponticelli filed another successive Rule
3.851 motion based on recently disclosed documents he obtained
from the Office of the State Attorney and the Department of
Corrections (PC-R2. 10-48).
In late 2007, Mr. Ponticelli instituted federal habeas
corpus proceedings before the Federal District Court for the
Middle District of Florida.
A state court evidentiary hearing was held before the
circuit court on October 1, 2008, on Mr. Ponticelli’s successive
Rule 3.851 motion.
On March 16, 2009, the circuit court entered an order
denying Mr. Ponticelli’s amended successive Rule 3.851 motion
(PC-R2. 879-889).
Mr. Ponticelli appealed to the Florida Supreme Court (PC-R2.
949-50). On November 10, 2010, the Florida Supreme Court entered
an order affirming the circuit court’s denial of relief.
Ponticelli v. State, 49 So. 3d 236 (Fla. 2010).
Shortly before the Florida Supreme Court had entered its
order on Mr. Ponticelli’s first successive Rule 3.851 motion, he
filed a second successive Rule 3.851 motion based upon Porter v.
McCollum, 558 U.S. 30 (2009) (PC-R3. 1-34). On April 1, 2011, the
circuit court denied Mr. Ponticelli’s motion.
Mr. Ponticelli appealed to the Florida Supreme Court.
Florida Supreme Court denied all relief on May 31, 2012.
4

The

Ponticelli v. State, 90 So. 3d 823 (Fla. 2012).
In May, 2011, the federal district court denied Mr.
Ponticelli’s petition for writ of habeas corpus. Mr. Ponticelli
appealed to the Eleventh Circuit Court of Appeals. On August 16,
2012, the Court affirmed the district court’s order. Ponticelli
v. Sec’y, Dept. of Corrs., 690 F.3d 1271 (11th Cir. 2012).
On December 14, 2016, Mr. Ponticelli filed a successive Rule
3.851 motion based upon Hurst v. Florida, 136 S.Ct. 616 (2016),
and Hurst v. State, 202 So. 3d 40 (Fla. 2016). On May, 9, 2017,
the circuit court denied Mr. Ponticelli’s motion. Mr. Ponticelli
timely filed a motion for rehearing. On April 12, 2019, the
circuit court denied the motion.
On appeal, the Florida Supreme Court entered an order
directing Mr. Ponticelli “to show cause ... why the trial court’s
order should not be affirmed in light of this Court’s decision in
Hitchcock v. State, 226 So.3d 216 (Fla.), cert. denied, 138 S.Ct.
513 (2017).” On April 16, 2020, the Florida Supreme Court denied
relief. Ponticelli v. State, 297 So. 3d 1292 (Fla. 2020).
FACTS RELEVANT TO QUESTIONS PRESENTED
Mr. Ponticelli was charged with two counts of first degree
murder and one count of robbery with a deadly weapon. Ponticelli
v. State, 593 So. 2d 483, 486 (Fla. 1992). The indictment, which
was read to the jury panel by the trial judge, failed to define
the applicable aggravating circumstances under Florida Statute
921.141, pursuant to which the state sought to convict and
execute Mr. Ponticelli (R. 12-13).
5

The trial court entered a judgment of acquittal on the
robbery count at the close of the state’s case-in-chief.
Ponticelli, 593 So. 2d at 486. However, the jury found Mr.
Ponticelli guilty on both counts of first-degree murder.
From the outset, the jurors were told individually that
their responsibility was merely to make a recommendation and
advise the Court as to the appropriate sentence of life or death
(R. 1365-70). In fact, each prospective juror and all of the
ultimate jurors repeatedly heard that they were responsible for
providing a recommendation, only, and that the judge was the
sentencer (Id.).
The jury was also advised that it was its duty to render
to the Court an advisory sentence and that the final decision
was with the judge (R. 1365-70). Thereafter, an advisory
verdict was returned stating whereby the jury “recommended” to
the court by a vote of 9-3 that Mr. Ponticelli be sentenced to
death for each shooting. Ponticelli, 593 So. 2d at 486.
The jury did not make statutorily required findings of
fact. See § 921.141(3) (2012) (“(a) That sufficient aggravating
circumstances exist as enumerated in subsection (5), and (b) That
there are insufficient mitigating circumstances to outweigh the
aggravating circumstances.”). Those findings were made by the
judge when he imposed a death sentence.

6

THE STATE COURT’S RULING
In denying relief on Mr. Ponticelli’s claim, the Florida
Supreme Court stated:
The United States Supreme Court’s precedent and our
precedent foreclose relief as to Ponticelli’s claims.
See McKinney v. Arizona, 140 S.Ct. 702, 707-08
(2020)(holding that, under Hurst v. Florida, “a jury
must find the aggravating circumstance that makes the
defendant death eligible,” but that a jury “is not
constitutionally required to weigh the aggravating and
mitigating circumstances or to make the ultimate
sentencing decision within the relevant sentencing
range,” and that Hurst v. Florida “do[es] not apply
retroactively on collateral review”); see also Poole,
41 Fla. L. Weekly at S48 (“reced[ing] from Hurst v.
State except to the extent it requires a jury
unanimously to find the existence of a statutory
aggravating circumstance beyond a reasonable doubt” as
required by Hurst v. Florida); Hitchcock v. State, 226
So. 3d 216, 217 (Fla. 2017)(holding that Hurst v.
Florida as interpreted in Hurst v. State is not
retroactive to defendants similarly situated to
Ponticelli).
Ponticelli v. State, 297 So. 3d 1292, 1293 (Fla. 2020).
REASONS FOR GRANTING THE WRIT
I.

THE FLORIDA SUPREME COURT ERRONEOUSLY APPLIED POOLE v. STATE
AND McKINNEY v. ARIZONA, TO MR. PONTICELLI’S CLAIM THAT THE
STATUTORY CONSTRUCTION IN HURST v. STATE, IDENTIFIED THE
ELEMENTS OF CAPITAL MURDER AT THE TIME OF HIS SENTENCING IN
1988.
In Hurst v. State, the Florida Supreme Court construed

Florida Statute § 921.141, and held:
under Florida law, “The death penalty may be imposed
only where sufficient aggravating circumstances exist
that outweigh mitigating circumstances.” Id. at 313,
111 S.Ct. 731 (emphasis added) (quoting § 921.141(3),
Fla. Stat. (1985)). Thus, before a sentence of death
may be considered by the trial court in Florida, the
jury must find the existence of the aggravating factors
proven beyond a reasonable doubt, that the aggravating
factors are sufficient to impose death, and that the
aggravating factors outweigh the mitigating
circumstances.
7

Hurst v. State, 202 So. 3d 40, 53 (Fla. 2016). Because the
sufficiency of the aggravating circumstances was a statutorily
identified fact that had to be found before a death sentence
could be imposed, the Florida Supreme Court concluded that the
sufficiency of the aggravating circumstances was an element that
had to be found unanimously by the jury:
We also conclude that, just as elements of a crime must
be found unanimously by a Florida jury, all these
findings necessary for the jury to essentially convict
a defendant of capital murder — thus allowing
imposition of the death penalty — are also elements
that must be found unanimously by the jury. Thus, we
hold that in addition to unanimously finding the
existence of any aggravating factor, the jury must also
unanimously find that the aggravating factors are
sufficient for the imposition of death and unanimously
find that the aggravating factors outweigh the
mitigation before a sentence of death may be considered
by the judge.
Id. at 53-54 (emphasis added).
In addition to the express language in the majority opinion
holding that the sufficiency of the aggravating circumstances was
an element of capital murder, Justice Canady’s dissenting opinion
stated his disagreement with the majority’s holding that the
sufficiency of the aggravating circumstances was an element:
“Elements” are “facts” that the State must prove to the
jury. Ring made clear and Hurst v. Florida reaffirmed
that in death cases, the necessary elements include the
existence of an aggravating circumstance. But the other
determinations made in a death penalty proceeding —
whether the aggravation is sufficient to justify a
death sentence; whether mitigating circumstances (which
are established by the defendant) outweigh the
aggravation; whether a death sentence is the
appropriate penalty—are not elements to be proven by
the State.
Hurst v. State, 202 So. 3d at 81-82 (Canady, J. dissenting).
8

The disagreement between the majority and the dissent in
Hurst v. State was over whether the finding that the aggravating
circumstances were sufficient was an element of the greater
offense of capital murder. This disagreement at its core was a
matter of statutory construction. The statute at issue was §
921.14111, which, at the time of Mr. Ponticelli’s sentencing,
provided:
(3) FINDINGS IN SUPPORT OF SENTENCE OF DEATH –
Notwithstanding the recommendation of a majority of the
jury, the court, after weighing the aggravating and
mitigating circumstances, shall enter a sentence of
life imprisonment or death, but if the court imposes a
sentence of death, it shall set for in writing its
findings upon which the sentence is based as to the
facts:
(a) That sufficient aggravating circumstances
exist as enumerated in subsection (5), and
(b) That there are insufficient mitigating
circumstances to outweigh the aggravating
circumstances.
In each case in which the court imposes the death
sentence, the determination of the court shall be
supported by specific written findings of fact based
upon the circumstances in subsections (5) and (6) and
upon the records of the trial and the sentencing
proceedings. If the court does not make the findings
requiring the death sentence, the court shall impose
sentence of life imprisonment in accordance with S.
775.082.
Fla. Stat. § 921.141(3)(emphasis added).
In Stringer v. Black, 503 U.S. 222 (1992), this Court was
called upon to contrast how capital sentencing schemes used
aggravating circumstances. This Court explained:
1

For simplicity, unless otherwise indicated, Mr. Ponticelli
refers in the present tense to Florida’s capital sentencing law
as it existed in 1988, when he was sentenced to death.
9

In Lowenfield [v. Phelps, 484 U.S. 231 (1988)], the
petitioner argued that his death sentence was invalid
because the aggravating factor found by the jury
duplicated the elements it already had found in
determining there was a first-degree homicide. We
rejected the argument that, as a consequence, the
Louisiana sentencing procedures had failed to narrow
the class of death-eligible defendants in a predictable
manner. We observed that “[t]he use of ‘aggravating
circumstances’ is not an end in itself, but a means of
genuinely narrowing the class of death-eligible persons
and thereby channeling the jury’s discretion. We see no
reason why this narrowing function may not be performed
by jury findings at either the sentencing phase of the
trial or the guilt phase.” [Citation]. We went on to
compare the Louisiana scheme with the Texas scheme,
under which the required narrowing occurs at the guilt
phase. [Citation]. We also contrasted the Louisiana
scheme with the Georgia and Florida schemes.
[Citation].
The State’s premise that the Mississippi sentencing
scheme is comparable to Louisiana’s is in error. The
Mississippi Supreme Court itself has stated in no
uncertain terms that, with the exception of one
distinction not relevant here, its sentencing system
operates in the same manner as the Florida system; and
Florida, of course, is subject to the rule forbidding
automatic affirmance by the state appellate court in an
invalid aggravating factor is relied upon. In
considering a Godfrey claim based on the same factor at
issue here, the Mississippi Supreme Court considered
decisions of the Florida Supreme Court to be the most
appropriate source of guidance.
Stringer, 503 U.S. at 233-34 (emphasis added).
In fact in Lowenfield v. Phelps, 484 U.S. 231, 242 (1988),
the Louisiana statute defined first degree murder as fitting
within one of five circumstances in contrast to Florida’s
provision that first degree murder is either premeditated or
felony-murder. This Court in Lowenfield found that the Louisiana
capital scheme operated similarly to the Texas scheme that
provided for death eligibility to be determined at the guilt
phase of the trial:
10

It seems clear to us from this discussion that the
narrowing function required for a regime of capital
punishment may be provided in either of these two ways:
The legislature may itself narrow the definition of
capital offenses, as Texas and Louisiana have done, so
that the jury finding of guilt responds to this
concern, or the legislature may more broadly define
capital offenses and provide for narrowing by jury
findings of aggravating circumstances at the penalty
phase. See also Zant [v. Stephens, 462 U.S. 862, 876
n.13 (1983)] discussing Jurek and concluding: “[I]n
Texas, aggravating and mitigating circumstances were
not considered at the same stage of the criminal
prosecution.”
Lowenfield, 484 U.S. 245-47 (emphasis added).
The Florida Legislature had decided that it was during the
penalty phase that the factual determinations were to be made as
to the aggravating circumstances and their sufficiency, as well
carrying out the Eighth Amendment narrowing function in
conformity with Zant v. Stephens:
To avoid arbitrary and capricious punishment, this
aggravating circumstance “must genuinely narrow the
class of persons eligible for the death penalty and
must reasonably justify the imposition of a more severe
sentence on the defendant compared to others found
guilty of murder.” Zant v. Stephens, 462 U.S. 862
(1983)(footnote omitted). Since premeditation is
already an element of capital murder in Florida,
section 921.141 (5)(I) must have a different meaning;
otherwise, it would apply to every premeditated murder.
Porter v. State, 564 So. 2d 1060, 1064 (1990).
The majority in Hurst v. State concluded that the factual
determination of that “sufficient aggravating circumstances
existed” is the finding of those additional facts that are
necessary under the Eighth Amendment requirement that death
eligibility be narrowed beyond the traditional definition of
first degree murder. Zant, 462 U.S. at 878 (“[S]tatutory
11

aggravating circumstances play a constitutionally necessary
function at the stage of legislative definition: they
circumscribe the class of persons eligible for the death
penalty”). Clearly in Florida, the narrowing of the death
eligible occurs in the sentencing phase. That factual
determination--that “sufficient aggravating circumstances exist”-has not been made during the guilt phase of a capital trial.
Fla. Stat. § 921.141, requires both the jury and the trial
judge to make at least two factual determinations before a death
sentence may be imposed. They (1) must find the existence of at
least one aggravating circumstance, AND (2) must find that
“sufficient aggravating circumstances exist” to justify
imposition of death. Fla. Stat. § 921.141(3), (emphasis added).
If the judge does not make these findings, “the court shall
impose a sentence of life imprisonment in accordance with
[§]775.082.” Id. (emphasis added). Fla. Stat. § 775.082 provides
that a person convicted of first-degree murder must be sentenced
to life imprisonment “unless the proceedings held to determine
sentence according to the procedure set forth in § 921.141 result
in finding by the court that such person shall be punished by
death.” The Florida Supreme Court has long held that §§ 775.082
and 921.141 do not allow imposition of a death sentence upon a
jury’s verdict of guilt, but only upon the finding of sufficient
aggravating circumstances. Dixon v. State, 283 So. 2d 1, 7 (Fla.
1973).
The majority in Hurst v. State read the plain language of
12

Florida’s death penalty statute as mandating a factual
determination that there existed sufficient aggravating
circumstances to justify a death sentence. Indeed, the statute
described the sufficiency of the aggravating circumstances as a
“fact” and required the entry of factual findings regarding the
sufficiency of the aggravators.2
In State v. Poole, the Florida Supreme Court announced it
was receding from Hurst v. State. 297 So. 3d 487, 502-03 (Fla.
2020)(“our Court was wrong in Hurst v. State when it held that
the existence of an aggravator and the sufficiency of an
aggravator are two separate findings, each of which the jury must
find unanimously.”). The Florida Supreme Court in Poole rejected
the Hurst majority’s reading of § 921.141 and adopted the
position taken by Justice Canady’s dissent. Poole rejected the
construction of § 921.141 that had been adopted in Hurst v.
State. However, the decision in Poole cannot be given retroactive
effect because to do so would violated the Due Process Clause.
When the Florida Supreme Court in Hurst v. State construed §
921.141, the Savings Clause of the Florida Constitution (Article
X, Section 9) required the law on the date of the criminal
offense to govern as to the prosecution and sentencing of a
criminal defendant. Thus, the construction of § 921.141 in Hurst
v. State reflected the meaning of the statute on November 27,
1987, the date of the homicides at issue there. The Florida
2

And Justice Canady, joined by Justice Polston, dissented from
the majority’s conclusion that the sufficiency of the aggravators
was an element of capital murder.
13

Supreme Court’s decision on January 23, 2020, in Poole to recede
from statutory construction set forth in Hurst v. State cannot be
applied retroactively. This Court has held that:
We think it clear that the South Carolina Supreme
Court, in applying its new construction of the statute
to affirm these convictions, has deprived petitioners
of rights guaranteed to them by the Due Process Clause.
If South Carolina had applied to this case its new
statute prohibiting the act of remaining on the
premises of another after being asked to leave, the
constitutional proscription of ex post facto laws would
clearly invalidate the convictions. The Due Process
Clause compels the same result here, where the State
has sought to achieve precisely the same effect by
judicial construction of the statute.
Bouie v. City of Columbia, 378 U.S. 347, 362 (1964). In Bouie,
the Court also stated:
When a state court overrules a consistent line of
procedural decisions with the retroactive effect of
denying a litigant a hearing in a pending case, it
thereby deprives him of due process of law ‘in its
primary sense of an opportunity to be heard and to
defend (his) substantive right.’ Brinkerhoff-Faris
Trust & Sav. Co. v. Hill, 281 U.S. 673, 678, 50 S.Ct.
451, 453, 74 L.Ed. 1107.
Id. at 354.
In Brinkerhoff-Faris Trust & Sav. Co. v. Hill, 281 U.S. 673,
681-82 (1930), this Court held:
Undoubtedly, the state court had the power to construe
the statute dealing with the state tax commission; and
to re-examine and overrule the Laclede Case. Neither of
these matters raises a federal question; neither is
subject to our review. But, while it is for the state
courts to determine the adjective as well as the
substantive law of the state, they must, in so doing,
accord the parties due process of law. Whether acting
through its judiciary or through its Legislature, a
state may not deprive a person of all existing remedies
for the enforcement of a right, which the state has no
power to destroy, unless there is, or was, afforded to
him some real opportunity to protect it.
14

(Footnote omitted).
Due process prohibits the retroactive application of
judicial interpretations of criminal statutes that are
“unexpected and indefensible by reference to the law which had
been expressed prior to the conduct in issue.” Rogers v.
Tennessee, 532 U.S. 451, 461 (2001). Certainly, Poole was
unexpected. It is also indefensible in that the statutory
construction set forth in Hurst v. State was applied to Hurst’s
crime, which was committed May 2, 1998. As a result, his death
sentence was vacated and his jury returned a binding life
recommendation. The Hurst statutory construction was applied in
the case of William Melvin White when the circuit court vacated
his death sentence on the basis of Hurst v. State. See White v.
State, 817 So. 2d 799 (Fla. 2002); White v. State, 729 So. 2d 909
(Fla. 1999); White v. State, 415 So. 2d 719 (1982). White’s
homicide was committed in 1978. After White’s death sentence was
vacated, the State did not pursue another death sentence. As a
result, a life sentence was imposed. Moreover, this Court in 1991
indicated that under Florida law a death sentence could only be
imposed “where sufficient aggravating circumstances exist”.
Parker v. Dugger, 498 U.S. 308 (1991).
Poole is also indefensible because the Florida Legislature
has demonstrated its agreement with the statutory construction
set forth in Hurst v. State. The legislature did not dispute the
holding of Hurst v. State, and chose not to change the statute
after Poole issued. This means that the Florida Supreme Court in
15

Hurst v. State correctly read the statute in Hurst v. State and
captured the legislative intent.
However, in Mr. Ponticelli’s case, the Florida Supreme Court
constitutionally erred when it held Poole retroactive contrary to
Bouie v. City of Columbia and Rogers v. Tennessee.
Furthermore, the Florida Supreme Court’s erroneously applied
this Court’s decision in McKinney v. Arizona to Mr. Ponticelli’s
case. This Court granted certiorari to McKinney “[b]ecause of the
importance of the case to capital sentencing in Arizona.”
McKinney v. Arizona, 140 S.Ct. 702, 706 (2020). Furthermore, the
specific questions presented to and considered by this Court
were:
1. Whether the Arizona Supreme Court was required to
apply current law when weighing mitigating and
aggravating evidence to determine whether a death
sentence is warranted.
2. Whether the correction of error under Eddings v.
Oklahoma, 455 U.S. 104 (1982), requires resentencing.
See McKinney v. Arizona, Case No. 18-1109, Initial Brief, August
21, 2019. In fact, this Court made clear in its opinion: “The
issue in this case is narrow. McKinney contends that after the
Ninth Circuit identified an Eddings error, the Arizona Supreme
Court could not itself reweigh the aggravating and mitigating
circumstances.” McKinney, 140 S.Ct. at 706. The Florida Supreme
Court misapprehended the application of McKinney to the
constitutional errors in Mr. Ponticelli’s capital proceedings.
It is important to note that the Arizona statute is markedly
different than Florida’s statute. The Arizona statute at issue in
16

Ring v. Arizona and found to govern McKinney did not require a
finding that sufficient aggravating circumstances existed to
justify a death sentence.
Nowhere in McKinney did this Court address the Florida death
sentencing scheme or the critical Eighth Amendment issues
presented by Mr. Ponticelli in his postconviction appeal,
including that Mr. Ponticelli’s Eighth Amendment right to a
unanimous jury finding of each element necessary to make him
eligible for a death sentence under Florida’s former capital
sentencing was violated and without which his death sentences are
simply unreliable, or that the current consensus reflecting the
evolving standards of decency preclude the execution of a
defendant without a jury’s unanimous death recommendation, or
that the Florida Supreme Court’s ruling that Hurst v. State does
not apply to Mr. Ponticelli is arbitrary and capricious.3
This Court Court’s opinion, which was limited to Arizona and
the specific questions before it, simply cannot be dispositive of
Mr. Ponticelli’s claims or correct the Fifth, Sixth and Eighth
Amendment violations that occurred at his capital sentencing
proceedings and led to the unreliable death sentences he
currently faces.
While McKinney has no relevance to the issue Mr. Ponticelli

3

The Florida Supreme Court failed to recognize that as reflected
in McKinney, the Arizona Supreme Court has determined that the
finality date for retroactivity purposes is the date on which the
conviction became final. This is markedly different from the
Florida Supreme Court’s view that a case is only final when the
sentence imposed is final.
17

presented to the Florida Supreme Court, this Court’s decision in
Ramos v. Louisiana, 140 S.Ct. 1390 (2020), which was decided on
April 20, 2020, does. In Ramos, this Court addressed the Oregon
and Louisiana laws permitting non-unanimous verdicts in criminal
cases. This Court held that the Sixth Amendment compels that a
defendant be convicted of a criminal charge in state court only
when a unanimous jury finds each element of the offence with
which he or she has been charged is proven beyond a reasonable
doubt. The impact of Ramos on the Florida Supreme Court’s
decision in Poole is indisputable. A unanimous guilty verdict is
definitely more reliable than a non-unanimous guilty verdict. See
Schriro v. Summerlin, 542 U.S. 348, 356 (2004)(“When so many
presumably reasonable minds continue to disagree over whether
juries are better factfinders at all, we cannot confidently say
that judicial factfinding seriously diminishes accuracy.”).
Finally, the circumstances surrounding Mr. Ponticelli’s
sentences of death establish that his constitutional rights were
violated. Mr. Ponticelli was indicted on January 4, 1988, with
two counts of first-degree murder in the deaths of Nicholas and
Ralph Grandinetti and one count of armed robbery (R. 1375-6).
Mr. Ponticelli pled not guilty to the charges (R. 1385).
The Grandinetti brothers were local drug dealers who fueled
twenty year old Anthony Ponticelli’s severe cocaine addiction.
The Grandinettis actually sought out Mr. Ponticelli and his
friends to supply them cocaine and crack, even when they knew
that the addicts could not pay for the drugs (see R. 966-968). On
18

Thanksgiving weekend, in 1987, the Grandinetti brothers pressured
Mr. Ponticelli to pay them what he owed for drugs. John Turner
testified at trial that Mr. Ponticelli had told him that: “[the
Grandinetti brothers] roughed him up, threw him in the back of
the car” (R. 645). Shortly thereafter, with a gun that Mr.
Ponticelli had borrowed for protection, he shot Nicholas and
Ralph Grandinetti.
After the State rested, the trial court granted the
defense’s motion for judgment of acquittal as to the armed
robbery count (R. 941). However, during the penalty phase,
despite the court’s finding, the jury was instructed that it
could consider the pecuniary gain aggravator as to both victims.
And, in sentencing Mr. Ponticelli to death, the trial judge found
that the murders were committed for pecuniary gain and they were
cold, calculated and premeditated (CCP). As to Nicholas
Grandinetti, the trial judge also found that the murder was
heinous, atrocious and cruel (HAC) (R. 1343). However, this Court
later determined that the HAC aggravator considered by Mr.
Ponticelli’s jury and found by the trial court was
unconstitutionally vague. See Ponticelli v. Florida, 506 U.S. 802
(1992). Following the penalty phase, the jury recommended
sentences of death by a 9-3 vote for each of the murders (R.
1371-2).
It is clear based on the Florida statute and caselaw and
jury instructions that the jury never made the requisite finding
that Mr. Ponticelli was eligible for a death sentence, even under
19

the Florida Supreme Court’s analysis in Poole. See Apprendi v.
New Jersey, 530 U.S. 466, 477 (2000)(holding that Fifth and Sixth
Amendment to the United States Constitution “entitle a defendant
to a ‘jury determination ... of every element of the crime with
which he is charged, beyond a reasonable doubt.’”); Ring v.
Arizona, 536 U.S. 584, 602 (2002)(“If a State makes an increase
in a defendant’s authorized punishment contingent on a finding of
fact, that fact, no matter how the State labels it – must be
found by a jury beyond a reasonable doubt.”). It cannot be said
that the jury found any aggravator unanimously or beyond a
reasonable doubt. Mr. Ponticelli’s death sentences violate the
Fifth, Sixth and Eighth Amendments to the United States
Constituion.
CONCLUSION
Petitioner, Anthony Ponticelli, requests that certiorari
review be granted.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been
furnished by United States mail, first class postage prepaid, to
Patrick Bobek, Assistant Attorney General, Office of the Attorney
General, The Capitol, PL-01, Tallahassee, FL 32301, on November
27, 2020.
/s/ Martin J. McClain
MARTIN J. MCCLAIN
Fla. Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
martymcclain@earthlink.net
20

COUNSEL FOR PETITIONER

21

